1

No:

■■or^prxfi
a
;. , .
, . • v ; /--^v
FILED
FEB 1 8 2021

IN THE

OFFICE OF THE CLERK
SUPREME COURT. U.R.

SUPREME COURT OF THE UNITED STATES

DOUGLAS JACKSON
Petitioner,
v

LEAH BEREAN ET, AL;
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

DOUGLAS JACKSON # 748757
Baraga Correctional Facility
13924 WadagaRd.
Baraga Michigan 49908

QUESTION(S) PRESENTED
A PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED WHERE BOTH
THE U.S. DISTRICT COURT AND THE U.S.COURT OF APPEALS HAS DEPARTED FROM
THE ACCEPTED AND USUAL COURSE OF JUDICIAL PROCEEDINGS AS TO CALL FOR
AN EXERCISE OF THIS COURT'S SUPERVISORY POWER. IN LIGHT OF THE
GENEROUS STANDARD AFFORDED TO PRO SE LITIGANTS IN PLEADING THEIR
CAUSES OF ACTIONS, HAINES. 404 U.S. 520, 521; 92 S CT 594, THE QUESTION
BECOMES, SHOULD THE LOWER COURTS HAVE BEEN SO STRINGENT IN LIMITING
ITS REVIEW TO ONLY ONE EXCEPTION OF FED, R. CIV. PROC. 60(B) IN DECIDING
WHETHER TO GRANT RELIEF.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

A

REASONS FOR GRANTING THE WRIT
CONCLUSION
INDEX TO APPENDICES

APPENDIX A: U.S. Court of Appeals judgement dated October 5th 2020
denying motion for reconsideration;
APPENDIX B:
U.S. Court of Appeals judgement dated August 21, 2020
denying appeal of Rule 60(B) Motion For Relief From Judgement;
APPENDIX C: U.S. District Court judgement dated April 14, 2020 Motion
for Reconsideration; denying
APPENDIX D: U.S. District Court judgement dated March 27,2020 denying
Rule 60(B) Motion for Relief From Judgement;
APPENDIX^E:
.S. Supfefrm Court A gemenLdated
oemiaKoO^titio^fon tit of CertiOTari
m ajsjjeaj/of\i§/Cohtf/of Appeals
December 18, 20lRaenial
otion for~Reconsideration;
APPENmX JXU/S-Cerii^GfAppeal^ju^
denyhfgMotion forReconsideration;
APPENDIX ^G: U^pCourt cT^ppeaLju^gemenj-^ated
tyi

ai

gmi

venrbeaJiC'SFKLS
eniM of Motion for

Reconsideration dismissing his 1983 Action;
^^P^J^IX/^^U^_^UtrjcT-Qourt/jiidge};rieht'dat6d'Ma5nAj~20T9-<l'enying

i^^Npi^/l!MJLS<^Districf/Cml!t7jud^me^rdatedxMahdn>9r^OT9ui€H57hig^

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Bounds v Smith, 430 US 817; 97 S Ct 1491; 52 L Ed 2d 72 (1977)

10

Cincinnati Ins, co. v Byers, 151 F3d 574, 5878 (6th Cir 1998)

8

Haines. 404 U.S. 520, 521; 92 S Ct 594...................................

8

Harbin-Bev

v.

Rutter.

420

2005)

F.3d

571,

578

(6th

Cir.

11

Jackson vBerean, U.S.D.C. no: l:18-cv-1075

.pasim

Jackson v. Gill, 92 F. App'x 171 (6th Cir. 2004))
Kensu

v.

Haigh,

87

F.3d

1996)

172,

175

(6th

11

Lewis v Casev, 518 U.S. 343,116 S. Ct. 2174,135 L. Ed. 2d 606 (1996).,
Pilsrim

Cir.

v.

Littlefield,

92

1996)

F.3d

413

10
(6th

Cir.

11

Tallev-Bev. 168 F.3d at 886

11

Vandiver v. Niemi, No. 94-1642, 1994 U.S. App. LEXIS 34257, 1994 WL 677685,
at
*1
(6th
Cir.
Dec.
1994)
Walker

2,

11
v.

Mintzes,

771

1985)

F.2d

920

(6th

Cir.

11

Yeschick v Mineta. 675 F3d622, 628 (6th Cir 2012)

10

First Amendment to the U.S. Constitutional

3

Fed, R. Civ. Proc. 60(b)
28 U.S.C. 1257(a)

passim
,2

s

*

No:

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORAI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
The Order of the U.S. Court of Appeals for the Sixth Circuit dated August 21, 2020 and
appears at Appendix A to the petition.
The Order of the U.S. Court of Appeals for the Sixth Circuit denying Petitioners Motion
for Reconsideration, dated October 5, 2020, appears at Appendix B to the petition.
The Order of the U.S. District Court, Case No: l:18-Cv-1075, dated April 14, 2020,
appears at Appendix C to the petition.
The Order of the U.S. District Court, Case No: l:18-Cv-1075, dated March 27, 2020,
appears at Appendix D to the petition.

JURISDICTION

On October 5, 2020 the U.S. Court of Appeals for the Sixth Circuit, Case no: 20-1296
issued an order denying petitioner Jackson petition for rehearing of that courts August 21, 2020
order affirming the district court’s denial of his motion for relief from judgement.
This petition for writ of certiorari is filed within 150 days of the United States Court of
Appeals for the Sixth Circuit.
The jurisdiction of this court is invoked under 28 U.S.C. 1257(a).

JURISDICTION

On October 5, 2020 the U.S. Court of Appeals for the Sixth Circuit, Case no: 20-1296
issued an order denying petitioner Jackson petition for rehearing of that courts August 21, 2020
order affirming the district court’s denial of his motion for relief from judgement.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The U.S.Constitutional Amendment Freedom Of Religion, Press, Expression, holds:

Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof, or abridging the freedom of speech, Or the
press, or the right of the people peacefully to assemble and to petition the
government for a redress of grievances

STATEMENT OF THE CASE

On May 31, 2018, Petitioner Douglas Jackson, hereafter “Petitioner”, in pro se, was
transferred from the Ionia correctional facility (ICF) to the Oaks Correctional Facility (ECF).
During all times relevant to this complaint, Petitioner was isolated at the Oaks correctional .
facility.

Petitioner was and still is illiterate. He did not and still does not have a General

Equivalency Diploma (GED) or a High school diploma. Petitioner does not have any training in
the law. Petitioner is not represented by counsel. Petitioner’s knowledge of the law was and still
limited. Petitioner was not and still is not an experienced litigator in the Federal courts; nor is
he a master of the law and Federal Rules of Civil Procedure.
Upon arrival at ECF, Petitioner immediately requested for legal writer services from the
(ECF) law librarian, Leah Berean. Petitioner was assigned a legal writer.
On June 22, 2018 through September 21, 2018, Respondent Berean began to take adverse
actions against Petitioner, because Petitioner filed a civil rights complaint against Michigan
Department of Corrections (MDOC) prison officials.

Petitioner had properly filed prison

grievances against Respondent Berean, on his own behalf.
Law Librarian Berean intentionally sabotaged each action Petitioner attempted to
meaningfully litigate. Petitioner was not, allowed physical access to the law library. Respondent
Berean would not allow Petitioner access to the electronic law library. Respondent would not
allow Petitioner legal reference materials from the law library. Petitioner would not provide
Petitioner with legal writer program services from any other persons trained in the law; nor did
Respondent Berean provide an alternative source of meaningful access to the court for Petitioner.

On October 31, 2018 the U.S. District Court, Western District of Michigan, Southern
Division, filed Petitioner’s first and only prisoner civil rights complaint utilizing a form supplied
by the court regarding this matter. In relevant part, Petitioner alleged that Respondent Berean
interfered with his fundamental right to access the courts, and his established right not to suffer
retaliation for exercising his 1st am freedoms. None of the defendants were ever served a
summons and the complaint against them. The courts record in this matter only consisted of
Petitioners verified complaint and supporting affidavit.
On January 12, 2019, the Court dismissed a number of the defendants.
On March 19, 2019 the U.S. District Court determined that petitioner filed to state a
retaliation claim against Respondent Berean. The action was dismissed with prejudice for failure
to state a claim.
On April 2, 2019 Respondent Berean sent Petitioner a memorandum stating in part:
Inmate Jackson, Your legal writer assistance has been cancelled per
Lansing: Based on the courts opinions in Jackson v Berean, U.S.D.C. no: 1:18cv-1075, our obligation to ensure that the prisoner has access to courts, does not
entitle that prisoner to be assisted by a legal writer. The Court opined in this
case that prisoner Jackson is a very experienced litigator in the federal courts
and he has demonstrated that he is fully capable of litigating cases without the
assistance of a legal writer (opinion page 12)...because prisoner Jackson
continues to engage in assaultive behavior towards the legal writer and in the
interest of maintaining safety and security, prisoner Jackson’s access to the legal
writer should be suspended until further review, (empahsis in original) (review
Bereans 4-2-19 memo attached as Exhibti “1”.
Since then, Petitioner has been continually denied meaningful access to the courts as a
result of Respondent Berean’s April 2, 2019 memorandum. Respondent Berean’s interference
with Petitioner’s access to the court was demonstrated by her intentional refusal to provide legal
writer services. Petitioner’s meaningful access to the courts, then and now, is in continued
jeopardy,

Petitioner appealed to the U.S. Court of Appeals for the Sixth Circuit. That court affirmed
the district court’s dismissal and denied Petitioner’s request for rehearing.
Petitioner had also filed a Petition for Writ of Certiorari to the U.S. Supreme Court that
was subsequently denied on April 27, 2020.
On March 19, 2020, Petitioner filed a motion in the U.S. District Court to reopen the case.
The Court construing the motion for relief from judgement, the court denied relief on
March 27, 2020
Petitioner filed a Notice of Appeal and on April 27, 2020.
The District Court granted his application to proceed in forma pauperis on appeal. On that
same date, the Supreme Court of the United States denied Petitioner petition for writ of certiorari.
With respect to Petitioners’ motion to reopen the case, Petitioner did file a motion for
reconsideration of the denial of relief which the district court claims it denied on April 14, 2020
The Order of the U.S. District Court, Case No: l:18-Cv-1075, dated April 14, 2020.
The Order of the U.S. District Court, Case No: 1:18-Cv-l 075, dated March 27, 2020.
The Order of the U.S. Court of Appeals for the Sixth Circuit dated August 21, 2020.
The Order of the U.S. Court of Appeals for the Sixth Circuit denying Petitioners Motion
for Reconsideration, dated October 5, 202.

REASONS FOR GRANTING THE PETITION

A petition for writ of certiorari should be granted where both the U.S. District Court and the
U.S.Court of Appeals has departed from the accepted and usual course of judicial proceedings as
to call for an exercise of this Court's supervisory power.
In light of the generous standard afforded to pro se litigants in pleading their causes of actions,
Haines, 404 U.S. 520, 521; 92 S Ct 594, the question becomes, should the lower courts have been
so stringent in limiting its review to only one exception of Fed, R. Civ. Proc. 60(b) in deciding
whether to grant relief.
A Rule 60(b) Motion may be granted for one of 6 reasons, i .e. :
(1)
(2)
(3)
(4)
(5)

mistake, inadvertance, surprise, or excusable neglect;
newly discovered evidence;
fraud, misrepresentation or the like;
the judgement is void;
the judgement has been satisfied, released or discharged, 0T a prior
judgement upon which it is based has been reversed or otherwise vacated, or
it is no longer equitable that the judgement should have prospective
application;
(6) any other reason justifying relief from the operation of the judgement, when
none of the first five enumerated examples of Rule 60(b) apply. Relief is
available only when exceptional or extraordinary circumstances are present.
Cincinnati Ins, co. v Byers, 151 F3d 574, 5878 (6th Cir 1998).
Petitioner is a layman in the law. He is currently, and was then confined to administrative
segregation. Placement in segregation bars inmates physical to the law library, electronic law library
computers, law books or other legal references.
Petitioner had previously been denied access to the legal writer program, preventing
Petitioner from receiving assistance from the legal writer program. Petitioner is also, not an
attorney, paralegal or trained in the law.

In accordance with Haines, the lower courts should have held their review to a less stringent
standard and reviewed his Motion to see if he fit one of the six sections of the Rule 60(b),
specifically, but limited to Rule 60(b)(3).
Petitioner asserts that he is entitled to relief under Rule 60(b)(3) based on the showing of
misconduct by the Respondent Berean and whether the U.S. District Court correctly identified the
facts and law under Rule 60(b).
TAKE NOTICE that the U.S. Court of Appeals, case no: 20-1296 on page 2 of its two page
order, held in pertinent part:
Although [Petitioner] Jackson asserts that the law librarian committed
misconduct in violation of Rule 60(b)(3) by preventing him from accessing the
legal writer program, he has not offered any evidence that the law librarian
interfered with his ability to prosecute his complaint.
In fact, the district court rejected [Petitioner] Jackson's access to the courts claim in part
because he was able to prepare a coherent complaint without assistance from a legal writer program.
The presentation of a 1983 complaint form to the Courts is not the equivalent of being able
to prosecute his complaint, when he was denied total access to the law library, legal assistance and
legal research materials to effectively prosecute his case.
The U.S. District Court in this case. Jackson v Berean, U.S.D.C. W.D. case no: l:18-cv!075
held in pertinent part, that the Courts obligation is to ensure that the prisoner has access to Court’s
does not entitle that prisoner to assistance by a legal writer. The U.S. District Court opined in this
case that prisoner Jackson is a very experienced litigator in the Federal courts and he has
demonstrated that he is fully capable of litigating cases without the assistance of a legal writer
(Opinion: page 12). Additionally, there are other resources available to prisoner Jackson, such as
the law library.

The U.S. District Court erred in that ruling, based on Petitioner Jackson had absolutely no
access to the law library as addressed above, effectively depriving Petitioner Access to the Courts,
in violation of his first amendment right.. As the U.S. Court of Appeals pointed out in its order:
When reviewing the denial of a Rule 60(b) motion, we do not review the underlying judgement,
instead, our "review is limited to whether the district court abused its discretion in denying the Rule
60(b) motion. Yeschick v Mineta, 675 F3d 622, 628 (6th Cir 2012).
In this case, the U.S. District Court clearly abused its discretion when finding that Petitioner
Jackson had access to a law library, when he was in segregation and could NOT physically access
the law library. Petitioner Jacksons complaint clearly noted he was in segregation and unable to
access legal research materials. Thus his only way to access the courts was by way of the legal
writer program. Or in the alternative provide him copies of legal reference material.
In Lewis v Casey, 518 U.S. 343, 116 S. Ct. 2174, 135 L. Ed. 2d 606 (1996). the Supreme
Court held that in order for a prisoner to maintain an action based upon a violation of the right of
access to the courts, the prisoner must demonstrate actual injury in a specific case. Lewis v Casey,
518 US 343, 349; 116 S Ct 2174; 2180; 135 L Ed 2d 606, 618 (1996). Citing Bounds v Smith, 430
US 817; 97 S Ct 1491; 52 L Ed 2d 72 (1977), the Court stated that prison law libraries and legal
assistance programs are not ends in themselves but only the means for ensuring a reasonably
adequate opportunity to present claimed violations of fundamental constitutional rights. Lewis v
Casey, 518USat351. The actual injury requirement is not satisfied by just any type of frustrated
legal claim. The actual injury must be in pursuit of a non-frivolous direct appeal from a criminal
conviction, a habeas corpus petition or a civil rights action under 42 USC § 1983 to vindicate “basic
constitutional rights.” Lewis v Casey„ 518 US at 354. The right of access to the courts recognized
in Bounds is simply a right to bring a complaint to the attention of a court. Bounds does not require
that the:

“state enable the prisoner to discover grievances and to litigate effectively once in
court.” Lewis v Casey. 518 US 354.
It requires only the means for ensuring a “reasonably adequate” opportunity to present
claimed violations of fundamental rights to the courts. Bounds did not create an abstract, free­
standing right to a law library, litigation tools, or legal assistance. Lewis v Casey. 518 US 354.
To state a claim, an inmate must show that any shortcomings in the library, litigation
tools, or legal assistance caused actual injury in his pursuit of a legal claim. Lewis. 518 U.S. at
351; Tallev-Bev. 168 F.3d at 886; Kensu v. Haieh. 87 F.3d 172, 175 (6th Cir. 1996); Pilsrim v.
Littlefield. 92 F.3d 413, 416 (6th Cir. 1996); Walker v. Mint7.es. Ill F.2d 920, 932 (6th Cir.
1985). An inmate must make a specific claim that he was adversely affected or that the litigation
was prejudiced. Harbin-Bey v. Rutter. 420 F.3d 571,578 (6th Cir. 2005); Vandiver y. Niemi. No.
94-1642, 1994 U.S. App. LEXIS 34257, 1994 WL 677685, at *1 (6th Cir. Dec. 2, 1994).
"Examples of actual prejudice to pending or contemplated litigation include having a case
dismissed, being unable to file a complaint, and missing a court-imposed deadline. " Harbin-Bey.
420 F.3d at 578 (citing Jackson v. Gill 92 F. App’x 171, 173 (6th Cir. 2004)).

As the U.S. Court of Appeals stated: Rule 60(b) provides for relief from a final judgement
only in limited circumstances, including “mistake, inadvertence, surprise, or excusable neglect,”
and "fraud (whether previously called intrinsic or extrinsic), misrepresentation, or misconduct by
an opposing party.

Fed. R. Civ. P. 60(b)(1) and (3).

Petitioner Jackson has demonstrated error on the lowers courts behalf.

Based upon the foregoing points and authorities, the Petitioner respectfully requests this
Honorable Court to grant the within writ and reverse the judgment of the court below. The petition
for a writ of certiorari should be granted as Petitioner was denied his federal constitutional rights.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
S/bOUGil/l’S J/V£k:S£>Ni

DOUGLAS JACKSON # 748757
Baraga Correctional Facility
13924 WadagaRd.
Baraga Michigan 49908
PfcEBOuAteM I Hi-smv/vks i8, 201 \

